HHS/OIG, Audit -"Review of Contractual Service Expenditures Claimed by New Jersey to the Disproportionate Share
Hospital Program for the Period April 1, 1997 Through June 30, 2001,"(A-02-03-01015)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Contractual Service Expenditures Claimed by New Jersey to the Disproportionate
Share Hospital Program for the Period April 1, 1997 Through June 30, 2001," (A-02-03-01015)
August 9, 2004
Complete
Text of Report is available in PDF format (267 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out that $106.7 million of contractual service costs claimed as eligible disproportionate share hospital
(DSH) expenditures were allowable for Federal funding.  However, contrary to applicable provisions of the Social Security
Act and the New Jersey State plan, $3.7 million ($1.8 million Federal share) was improperly claimed for Federal reimbursement.  This
is the fourth in a series of reports on Medicaid DSH claims prepared by a consultant under a contingency fee contract and
submitted by New Jersey for Federal reimbursement.  The Senate Finance Committee is investigating Medicaid revenue-maximizing
arrangements between States and private consulting firms and requested the results of this review.  The State concurred
with our recommendations.  We recommended that New Jersey (1) refund $1.8 million to the Federal Government, (2) adhere
to Federal law and State plan requirements when submitting future DSH claims for Federal reimbursement, and (3) review
all work performed by consultants to ensure the veracity of future Medicaid claims to the Federal Government.